4

%**
(

No. 20-7074

!

Y.

IN THE SUPREME COURT OF THE UNITED STATES
JIMMY LEE NAVE JR,
Petitioner.

v.

Supreme Court, U.S.
FILED

APR 2 0 2021
OFFICE OF THE CLERK

FRANK VANIHEL, WARDEN,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE SEVENTH CIRCUIT COURT OF APPEALS

PETITION FOR REHEARING

JIMMY LEE NAVE JR.
232904
W.V.C.F.
p.o. box mi
CARLISLE, IN. 47838
Petitioner Pro Se

)
V“w

TABLE OF CONTENTS

Table of Contents

1

Table of Authorities

n

Petition for Rehearing

1

Statement of Facts

1

Reasons Meriting Rehearing

2

Suggestions in Support of Rehearing

7

Conclusion

11

Appendix
Order denying Certiorari

A

Decision of the United States District Court, Southern District of Indiana

B

i

JO

TABLE OF AUTHORITIES
CASES
Beck v. Ohio, 379 U.S. 89, 91 (1964)

2

Bonte v. U.S. BankN.A., 624 F.3d 461,466 (7th Cir. 2010)...,

5,6

Fils v. City of Aventura, 647 F.3d 1272, 1295 (11th Cir. 2011)

5

Franks v. Delaware, 438 U.S. 154, 155-156 (1978)

2,3,8

Hunter v. Bryant, 502 U.S. 224, 228 (1991)

2

Notredan LLC v. Old Republic Exch. Facilitator Co.
531 F. App’x 567, 569 (6th Cir. 2013).......................

5

Sims v. State, 771 N.E. 2d 734, 737-738 (Ind. Ct. App. 2002)

10

United States v. Olano, 507 U.S. 725, 733 (1993).....................

5

United States v. Rajaratnam, 719 F.3d 139, 154 (2nd Cir. 2013)

3

United States v. Ranney, 298 F.3d 74, 78 (1st Cir. 2002)..........

3

United States v. Schmitz, 181 F.3d 981,986-87 (8th Cir. 1999).

3

United States v. Wade, 388 U.S. 218, 230-231 (1967).........

9

United States v. Williams, 737 F.2d 594, 602 (7th Cir. 1984)

3

Wiggins v. Smith, 539 U.S. 510, 520-521 (2003)

9

Williams v. Taylor, 529 U.S. 362, 405-406 (2000)

7

Wilson v. Russo, 212 F.3d 781, 788 (3rd Cir. 2000)

3

Wilson v. Sellers, 138 S. Ct. 1188, 1191-1192 (2018)

9

STATUES
28 U.S.C. §2254

7

Indiana Post-Conviction Rule 1 §6

10

Supreme Court Rule 44

1
ii

/«-'■

PETITION FOR REHEARING AND SUGGESTIONS IN SUPPORT
COMES NOW Petitioner, Jimmy Lee Nave Jr., Pro Se, and prays this Court to grant
Rehearing pursuant to Rule 44, and thereafter, grant him a Writ of Certiorari to review the
decision of the United States District Court, Southern District of Indiana.
In support of petition, Mr. Nave states the following.
STATEMENT OF FACTS
Mr. Nave filed a habeas corpus petition with the United States District Court, Southern
District of Indiana, challenging his state conviction for Kidnapping on the grounds that his trial
counsel rendered constitutionally ineffective assistance of counsel.
Mr. Nave argued that his trial counsel was ineffective for failing to object to Mr. Nave’s
warrantless arrest on the grounds that the probable cause affidavit was defective, in that the
probable cause affidavit contained false statements that were necessary to the finding of probable
cause, in violation of the Fourth Amendment to the United States Constitution. In determining
the veracity of the probable cause affidavit, the district court improperly relied on evidence
obtained at Mr. Nave’s trial, in order to determine that the statements challenged by Mr. Nave
were not false, thus rejecting Mr. Nave’s ineffective assistance of counsel claim. Evidence or
events occurring after an arrest does not factor into the probable cause inquiry.
Mr. Nave also argued that his trial counsel was ineffective for failing to object to witness
Robert Derrickson’s in-court identification of Mr. Nave on the grounds that the pretrial
identification procedures were unduly suggestive and Mr. Derrickson’s in-court identification of
Mr. Nave was unreliable. The state never responded to Mr. Nave’s reliability argument therefore,
waiving the issue. In addressing Mr. Nave’s argument, the district court only addressed the
reliability factor and the court found that Mr. Derrickson’s in-court identification of Mr. Nave
was “sufficiently reliable” in order to reject Mr. Nave’s ineffective assistance of counsel claim.

i.

REASONS MERITING REHEARING
1. The district court improperly relied on evidence received after Mr. Nave’s arrest in order
to determine the veracity of the probable cause affidavit, which is in conflict with this Court’s
standard for determining probable cause.
This Court has held that probable cause determinations depends on the facts and
circumstances present at the moment the arrest was made. Beck v. Ohio, 379 U.S. 89, 91 (1964);
Hunter v. Bryant, 502 U.S. 224, 228 (1991).
In this case, a probable cause affidavit was submitted to the court for a probable cause
determinations.
Mr. Nave argued that the affiant knowingly and intentionally, or with reckless disregard
for the truth, included in the probable cause affidavit two false statements that were necessary to
the finding of probable cause.
It is well established that, where a defendant makes a substantial preliminary showing
that a false statement knowingly and intentionally, or with reckless disregard for the truth, was
included by an affiant in his affidavit for a warrant, and if the alleged false statements was
necessary to the finding of probable cause, the Fourth Amendment required that a hearing be
held at the defendant’s request so that he might challenge the truthfulness of factual statements
made in the affidavit, and if at such hearing the defendant established by a preponderance of the
evidence the allegation of perjury or reckless disregard, and with the affidavit’s false material set
to one side, the affidavit’s remaining content was insufficient to establish probable cause, the
warrant had to be voided and the fruits of the arrest excluded to the same extent as if probable
cause was lacking on the face of the affidavit. Franks v. Delaware, 438 U.S. 154, 155-156
(1978).

2

L

The Franks decision did not define reckless disregard for the truth, other than to suggest
that the standard required more than mere negligence on the part of the affiant. Franks, 438 U.S.
at 171. Most Circuit Courts have adopted a subjective test for determining whether the affiant
included in the warrant affidavit a false statement intentionally, or with reckless disregard for the
truth, as, whether viewing all the evidence, “the affiant must have entertained serious doubts as
to the truth of his statements or had obvious reasons to doubt the accuracy of the information he
reported. United States v. Ranney, 298 F.3d 74, 78 (1st Cir. 2002); United States v. Rajaratnam,
719 F.3d 139, 154 (2nd Cir. 2013); Wilson v. Russo, 212 F.3d 781, 788 (3rd Cir. 2000); United
States v. Williams, 737 F.2d 594, 602 (7th Cir. 1984); United States v. Schmitz, 181 F.3d 981,
986-87 (8th Cir. 1999).
Mr. Nave also had to point out specifically the portion of the affidavit that he claimed to
be false and those allegations had to be accompanied by an offer of proof. Affidavits or sworn or
otherwise reliable statements of witnesses, or their absence satisfactorily explained. Franks, 438
U.S. at 171.
Mr. Nave argued that the two following statements in the probable cause affidavit were
false and necessary to the finding of probable cause: (1) “The suspect was later identified as
Jimmy Lee Nave after he went to Manies Garage and asked for a ride” and (2) “Manie Vive
described Nave’s clothing as being the same described by the victim and witness.”
In regards to the first statement, according to the affiant, the suspect was identified as Mr.
Nave, which was completely false. When reviewing all of the evidence obtained prior to Mr.
Nave’s arrest, there was no evidence of an identification of Mr. Nave as being the suspect. There
were only two people who could have identified the suspect, the victim and the only witness and
neither person identified the suspect as being Mr. Nave prior to Mr. Nave’s arrest. According to

3

the probable cause affidavit, the victim, Ruth Clark was able to describe the suspect as a black
male after seeing the color of the suspect hands. Mrs. Clark never saw the suspect face. Mr. Nave
also submitted the Transcript of Videotaped Statement of Robert Derrickson, which showed that
Mr. Derrickson, the only witness to the crime, was unable to identify anyone as being the suspect
from a photo lineup prior to Mr. Nave’s arrest. The affiant was the detective who interviewed
Mrs. Clark and Mr. Derrickson prior to Mr. Nave’s arrest, therefore, the affiant must have
entertained serious doubts as to the truth of his statement and had obvious reasons to doubt the
accuracy of this statement because the affiant knew that the victim and the only witness had not
identified the suspect as being Mr. Nave.
In regards to the second statement, when reviewing all of the evidence obtained-prior to
Mr. Nave’s arrest, there was no evidence that Manie Vive described Mr. Nave’s clothing as
being the same as described by the victim and witness. As such, the affiant had obvious reasons
to doubt the accuracy of this statement.
In addressing the veracity of the affiant statements, the district court improperly
considered evidence obtained at Mr. Nave’s trial in order to determine that “Neither of the
statements challenged by Mr. Nave were false, just incomplete.” The veracity of the affiant
statements must be based on the evidence known to the affiant at the moment Mr. Nave’s arrest
was made. Evidence or events occurring after an arrest is irrelevant to the veracity of statements
made in the probable cause affidavit. The fact that Mr. Nave was identified as being the suspect
at Mr. Nave’s trial does not mean that Mr. Nave was identified as being the suspect prior to Mr.
Nave’s arrest. The fact that Mr. Vive identified Mr. Nave’s clothing at Mr. Nave’s trial does not
mean that Mr. Vive identified Mr. Nave’s clothing prior to Mr. Nave’s arrest.

4

i

Jk.

JL-

Whether the affiant statements were false, is a straightforward question: At the moment
Mr. Nave’s arrest was made, was the suspect identified as Mr. Nave and did Manie Vive
describe Mr. Nave’s clothing as being the same described by the victim and witness. There has
been no evidence presented of an identification of Mr. Nave as being the suspect that occurred
prior to Mr. Nave’s arrest and no evidence that Manie Vive described Mr. Nave’s clothing as
being the same as described by the victim and witness prior to Mr. Nave’s arrest.
If an affiant is able to use deliberately falsified allegations to demonstrate probable cause,
in case probable cause is later developed, the requirement of probable cause for arrest has been
turned upside down.
The affiant in this case, intentionally, or with reckless disregard for the truth, included
two false statements in the probable cause affidavit that were necessary to the finding of
probable cause, in violation of the Fourth Amendment to the United States Constitution.
This Court must grant Rehearing and issue a Writ of Certiorari because failure to do so
would allow the district court to continue to address issues improperly, which would deny justice
to those it is entitled to.
2. The district court’s decision to not hold that the state waived its argument after the state
failed to respond to Mr. Nave’s argument is clearly in conflict with Circuit Courts that has held
failure to respond to argument results in waiver. Notredan LLC v. Old Republic Exch.
Facilitator Co., 531 F. App’x 567, 569 (6th Cir. 2013); Bonte v. U.S. BankN.A., 624 F.3d 461,
466 (7th Cir. 2010); Fils v. City of Aventura, 647 F.3d 1272, 1295 (11th Cir. 2011).
This Court has also held that a waived issue or argument is not reviewable. United States
v. Olano, 507 U.S. 725, 733 (1993). The district court improperly reviewed a waived argument.

5

V.

Mr. Nave argued that witness Robert Derrickson’s in-court identification of Mr. Nave
was unreliable. The state has never responded to Mr. Nave’s reliability argument. The State had
every opportunity to respond but chose not to. As a result of not responding, the state waived the
argument.
In Bonte’s supra, the Seventh Circuit held Bontes failure to respond to argument left the
court to conclude that Bontes had waived any argument and left the court no choice but to accept
U.S. Bank’s argument. Bonte, 624 F.3d at 466. Similarly, the state’s failure to respond to Mr.
Nave’s reliability argument should have left the district court to conclude that the state had
waived the reliability argument and left the district court no choice but to accept Mr. Nave’s
reliability argument that Mr. Derrickson’s in-court identification of Mr. Nave was unreliable.
Instead, the district court declined to accept Mr. Nave’s reliability argument and made a
reliability argument on behalf of the State and found that Mr. Derrickson’s in-court identification
of Mr. Nave was “sufficiently reliable.”
This Court must grant Rehearing and issue a Writ of Certiorari because failure to do so
would allow the district court to continue to be in conflict with Circuit Courts and deny justice to
• those it is entitled to.
3. This Court has an ethical duty by the United States Constitution to establish the law of
the land and to assure the Citizens of the United States of America that the lower courts apply
that law. When they do not, it is this Court’s obligation to HOLD THAT COURT
ACCOUNTABLE and see to it that justice is administered fairly. This Court MUST hear
this case and hold the United States District Court, Southern District of Indiana accountable for
failing to properly apply the law of the land and relief where relief is do.

6

u

>

SUGGESTIONS IN SUPPORT OF REHEARING
A federal court may grant a state habeas petitioner relief for a claim that was adjudicated
on the merits in state court only if that adjudication “resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States,” or “resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. §2254(d)(l)(2).
In denying Mr. Nave habeas relief, the district court failed to apply 28 U.S.C.
§2254(d)(l)(2) to Mr. Nave’s case. Instead, the district court exceeded its authority by ignoring
the state courts adjudication of Mr. Nave’s claims and then adjudicated Mr. Nave’s claims on the
merits in order to deny Mr. Nave habeas relief.
Mr. Nave argued that the Indiana Court of Appeals adjudication of Mr. Nave’s claim that
his trial counsel was ineffective for failing to object to Mr. Nave’s warrantless arrest on the
grounds that the probable cause affidavit was defective, in that the probable cause affidavit
contained false statements that were necessary to the finding of probable cause, resulted in a
decision that was contrary to, clearly established Federal law, as determined by the Supreme
Court of the United States.
A state courts decision is “contrary to” clearly established Federal law if it applies a rule
that contradicts the governing law set forth by the Supreme Court or if it confronts a set of facts
that are materially indistinguishable from a decision of the Supreme Court and arrives at a result
different from Supreme Court precedent. Williams v. Taylor, 529 U.S. 362, 405-406 (2000).
In considering Mr. Nave’s argument, the Indiana Court of Appeals did not dispute that
the probable cause affidavit contained false statements. As such, the court was required to

7

v« '■

state prisoners federal claims, and to give appropriate deference to that decision. Wilson v.
Sellers, 138 S. Ct. 1188, 1191-92 (2018).
In considering Mr. Nave’s argument, the Indiana Court of Appeals only addressed the
pretrial identification procedures. Mr. Nave argued that while Mr. Derrickson was viewing a
photo lineup, the detective pointed out Mr. Nave’s photo to Mr. Derrickson and questioned Mr.
Derrickson about Mr. Nave, which rendered the procedure unduly suggestive. In United States v.
Wade, 388 U.S. 218, 230-31 (1967), this Court listed numerous instances of suggestive
procedures which included when a suspect is pointed out before or during a lineup.
During an interview, a detective showed Mr. Derrickson a photo lineup and while Mr.
Derrickson was viewing the photo lineup, the detective asked Mr. Derrickson, if Mr. Derrickson
“remembered ever seeing this guy.”
Mr. Nave argued that the detective was pointing out Mr. Nave’s photo to Mr. Derrickson
when the detective asked Mr. Derrickson if Mr. Derrickson “remembered ever seeing this guy”
which rendered the procedure unduly suggestive.
The Indiana Court of Appeals disagreed with Mr. Nave’s reading of the record and found
that the detectives question was “a general question rather than as pointing to a specific picture in
the photographic lineup” and concluded that the pretrial identification procedures were not
unduly suggestive. The Indiana Court of Appeals ignored the unrefuted evidence that Mr. Nave
submitted in order to make its factual finding. An objectively unreasonable determination of the
facts occurs when the court ignores unrefuted evidence. Wiggins v. Smith, 539 U.S. 510, 520-21
(2003).
The post-conviction record reveals absolutely no support for the Indiana Court of
Appeals factual determination that the detective’s question was a general question rather than as

9

f

it-,

pointing to a specific picture in the photographic lineup. In Indiana, a post-conviction court must
make findings of fact and conclusions of law on all issues presented in a petition. Indiana PostConviction Rule 1 §6. Review on appeal is limited to these findings and conclusions. Sims v.
State, 771 N.E. 2d 734, 737-38 (Ind. Ct. App. 2002). The post-conviction court never made a
finding that the detectives question was “a general question rather than as pointing to a specific
picture in the photographic lineup.”
The Indiana Court of Appeals decision to ignore unrefuted evidence in order to find that
the pretrial identification procedures were not unduly suggestive must be considered a decision
that was based on an unreasonable determination of the facts. As such, the Indiana Court of
Appeals decision to reject Mr. Nave’s ineffective assistance of counsel claim was a decision that
was based on an unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.
Mr. Nave was entitled to federal habeas relief on this ground.

10

r

CONCLUSION
For the reasons stated, this Court Must grant Rehearing of its judgment entered on
April 5, 2021 and issue a Writ of Certiorari to hold the United States District Court, Southern
District of Indiana accountable for failing to address Mr. Nave’s arguments properly and
grant Mr. Nave relief. Should Mr. Nave’s cry for justice not be heard and denied relief, may
this Court also cry and not be heard “For whoever shut their ears to the cry of the poor will
also cry themselves and not be heard.” Proverbs 21:13.
Respectfully submitted,

UA/rYifn/bJ fjC&u yiAnf On
lAimmy lee nave jr„ pro se
232904
W.V.C.F.
p.o. box mi
Carlisle, IN. 47838
Petitioner

CERTIFICATE OF SERVICE
The undersigned hereby certifies that a copy of the foregoing was mailed, postage prepaid,
this 19th day of April 2021, to Stephen R. Creason, Office of the Attorney General, Indiana
Government Center South, 302 West Washington Street, Fifth Floor, Indianapolis, Indiana
46204.

Petitioner

11

<v

No. 20-7074

\____y

i_.

„ ^

^

IN THE SUPREME COURT OF THE UNITED STATES
f

JIMMY LEE NAVE JR,
Petitioner,

V.
FRANK VANIHEL, WARDEN
Respondent.
CERTIFICATE OF GOOD FAITH
COMES NOW Petitioner, Jimmy Lee Nave Jr, Pro Se, and makes certification that his
petition for rehearing is presented to this Court in good faith pursuant to Rule 44. Mr. Nave
further states the following:
1. This Court entered its judgement denying petitioner a Writ of Certiorari on April 5
2021. Petitioner believes that he presents this Court with adequate grounds to justify the granting
of rehearing in this case and said petition is brought in good faith and not for delay. Furthermore,
petitioner believes that based upon the law of the land and the facts of this case, Mr. Nave is
entitled to relief which has been unjustly denied him. Mr. Nave further believes that if the United
States District Court, Southern District of Indiana are continually allowed to address issues
improperly, a number of people will be denied their constitutional right to due process.
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on this 19th day of April 2021.

RECEIVED
APR 29 2021
g^^5HCTLEURSK

_

